No. 19-1348
IN THE

ii§upretne Court of tie Ettitett *tatto
IN RE: FEDERAL BUREAU OF PRISONS' EXECUTION
PROTOCOL CASES
ALFRED BOURGEOIS, et al.,
Petitioners,
v.
WILLIAM P. BARR, ATTORNEY GENERAL, et al.,
Respondents.
CAPITAL CASE

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the D.C. Circuit

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,000 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 22, 2020.

(14°
Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

